  . ..   . .



          BENEFIOIARY SATISFACTION WITH

           GEOaGIA' MEDICARE CARRII;R





                       1:$




    '0


              1t""3a


OFFICE OF INSPECTOR GENERAL
OFFICE OF 
                  EVALUATION AND INSPECTIONS .

                                                         FEBRUARY 1990
                          OFFICE OF 
   INSPECTOR ' GENERAL


  The mission of the Offce of Inspector Genera (OIG) is to promote the effciency, effective­
  ness,. and integrty of progrs in the United States Deparent of Health and Human Ser­
  vices (HS). It does this by developing methods to detet and prevent fraud, waste, and
  abuse. Create by statute in 1976, the Inspector General keeps both the Secreta and the Con­
  gress fully and cUrently informed about programs or management problems and recottends
. corrctive action. The OIG perform its mission By conducting audits , investigations, and in­
  spections with approximately 1,400 sta strategically located around the countr.


                 . OFFICE OF EVALUATION AND INSPECTIONS


This report is produced by the Offce of Evaluation and Inspections (OE!), one of the thee
major offces withintheOIG. The other two are the Offce of Audit Services and the Offce of
Investigations. Inspections ar conducte in accordance with professionalstandadsdevel­
oped by OEITheseinspections are typicaly short-termsmdies designed to determne pro­
gram effectiveness, effciency, and vulnerabilties to fraud or abuse.
The purose of this inspection , entitled " Beneficiar Satisfaction with Georgia s Medcare Car­
rier " was to determne beneficiar satisfaction with services provided by the Medicare Par B
carer in Georgia. Responses were compared to those in a 1989 OIG national " Surey of
Medcare Beneficiar Satisfaction " to determe if there were signicant dierences.

Th     pection was performed under the dition of Linda Herzog, the Regional Inspector
General of Region IV'Offce of Evaluation and Inspections. Pancipatig in the project were:

Atlanta Region                              Headq uarters
Betty Davis,   Project Leader               Bar Steeley
Joe Townsel                                 Wm. Mark Krshat, MPH
Maureen Wilce                               Vicki Greene
Peggy Daniel                                Barbara Tedesco
Ar Jones, Ph.
Joseph. Pattrson
Jean Dufesne
  BENEFICIARY SATISFACTION WITH

   GEORGIA' S MEDICARE CARRIER





                   Richard P. Kusserow
                   INSPECTOR GENERAL




OEI-Q4-90- 01050                         FEBRUARY 1990

                                 EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection , entitled " Beneficiar Satisfaction with Georgia s Medicare
Carer " was to determe beneficiar satisfaction with services provided by the Medicare
Par B carer in Georgia. Responses were compared to a 1989 Office of Inspector General
(OIG) national " Survey of Medicar Beneficiar Satisfaction " to determne if there were
signifcant differences.



BACKGROUND

On Januar 1, 1989 the Health Care Financing Admnistrtion (HCFA) implemented two
major changes in the Medicar Par B progr in Georgia:


              The carer was changed from Prdential      Insurance Company of America to
              Aetna Life and Casualty.

              The new carer was required to subcontract with a third pary to conduct
              medical reviews of the clais as par of a pilot cost-containment program.
              Aetna chose HealthCar COMPARE Inc. of llinois to review the
              appropriateness of claims and physician charges.


Beginning in November 1989, both changes have received extensive media attention,
parcularly in the Atlanta newspapers. Several of the arcles suggested the changes have
caused serious problems for Medicare beneficiares and the doctors who treat them.

Aetna s sta-up problems, coupled with a backlog of clais from the previous carer, created
delays and errors in payments. Furhermore, HealthCare COMPARE devoted more resources
than Prdential Insurance Company to detecting inappropriate coding and improper utilization
of services. The resultig increase in payment denials and reductions caused concern among
beneficiares and physicians.


The Inspector Genera of the Deparment of Health and Human Services was asked by the
Acting Admistrator of HCFA to assess       beneficiary satisfaction with Aetna s service over the
first year of its operation in Georgia. The OIG surveyed a randomly selected sample of
beneficiares for whom Medicare Par B claims were submitted in Calendar Year 1989.
Parcipation in the surey was voluntar and yielded an overall response rate of 83 percent.
FINDINGS

This surey found  that Georgia Medicare beneficiares hold opinions of Medicar and carer
claims processing which ar similar to the opinions of beneficiares nationwide.


            Eighty- five percent of Georgia beneficiares are satisfied, in general, with claims
            processing, compared to 88 percent of beneficiares   nationwide.


            Eighty- thee percent of Georgia beneficiares can get informtion about the
            Medicare program when needed, compared to 85 percent of beneficiares
            nationwide.

            Seventy- the percent of Georgia beneficiares think the carers pay claims
            quickly enough , compard to 74 percent of beneficiares nationwide.
                          ..........................................................................................
                                                      ..... .........
                                                                 .... .....
                                                                        ........
                                                                             ........
                                                                            ....           ........
                                                                                    ........
                                                                                  ....   .... ... ...........
                                                                                             ........... ... ...........
                                                                                                                   .........  .............
                                                                                                        ...........................
                                                                                                                         .........
                                                                                                                                ......
                                                                                                                                   ........ ........




                                                TABLE OF CONTENTS



EXECUTIVE SUMMARY

NTRO D U CTIO N                                                                                                                       8.........8..8 1


     Pu rpose ......................... ............................................ ..................................... D8. 1

     Backg ra und. . ..................................................................................................... 1

     Meth ods............................................................................................................. 2


FI N DI NGS.   ... ........... ........ .......... ........ .... .... ......                                                             ........... 4

     Georgia Beneficiaries Respond Similarly to Beneficiaries Nationwide..... 4

     Beneficiaries in Georgia and Nationwide Are Satisfied, in General
       with Claims Processing ...                                                II 4


     Beneficiaries Can Get Information when Needed. .............................. 7

     Satisfaction with the Appeal Process Cannot Be Determined 

     Respondents ' Comments Were Generally Positive 

HCF A COMM ENTS ........ ..................... ....                                               ............ 80.. .... .....11......" II   II.. II II ...




APPENDICES

     Appendix A: Methods and Sample Selection ................................ A - 1

     Appendix B: Responses to Georgia Medicare Beneficiary Survey..... B - 1

     Appendix C: Comparison to 1989 National Survey......................... C - 1

     Appendix D: Analysis of Respondents vs. Nonrespondents ............. D - 1

     Appendix E: HCFA Comments .................................................................. E -

                                     INTRODUCTION



PURPOSE

The purose of this inspection , entitled " Beneficiar Satisfaction with Georgia s Medicare Car­
rier " was to determne beneficiar satisfaction with services provided by the Medicare Par B
carer in Georgia. Responses were compared to a 1989 Offce of Inspector General (OIG) na­
tional " Surey of Medicar Beneficiar Satisfaction " to determne if there were significant dif­
ferences. The Acting Administrator of the Health Care   Financing Admnistrtion (HCFA)
requested the study.



BACKGROUND

Medicare Program

Medicare is a Federa health insurce program for individuals age 65 and older and for cer­
tain categories of disabled people. Authorized in 1965 by title XVIII of the Social Security
Act, Medicar serves over 33 milion people nationwide. These Medicare recipients        are
known as              Over 680, 000 beneficiares reside in Georgia.
           beneficiaries.




The Medicare Program has two pars.       Par A (hospita insurance) helps pay for inpatient hospi­
tal care, some inpatient care in a skiled nursing facility, skilled home health car, and hospice
care. A person entitled to Medicare automatically receives this coverage. Par B (medical in­
surance) covers physicians ' services, outpatient hospital services, and other medical services
and supplies. Par B is optional. Beneficiares desirng this coverage pay a monthly premium.
Both Par A and Par B have deductible and coinsurace requirements. Beneficiares must pay
these either out of pocket or through supplemental insurance coverage.

Medicare paid almost $33 bilion for Par B benefits in Calendar Year 1988. Of that amount
an estimated $692 milion was paid in Georgia.

Within the Deparent of Health and Human Services (HS), HCFA is responsible for the
Medicare progr. However, other organizations share in the progr s administration. The
Social Security Admnistrtion (SSA) establishes eligibilty, enrolls beneficiares in the pro­
gram, and collects the premiums for Par B coverage. Prvate health insurance companies con­
tract with the Federa Government to service claims for Medicar payment. Insurance
companies that handle Par A claims ar called    intermediaries. Those handling Par B claims
are called  carriers. In Georgia, the intermediar is Blue Cross/Blue Shield. The carer is
Aetna Life and Casualty.
Recent Changes in Georgia

On Januar 1 ,   1989 HCFA implemented two major changes in the Medicar     Par B program
Georgia:

           The carer was changed from Prdential      Insurance Company of America to Aetna
           Life and Casualty.

           The new carer was requird     to subcontrct with a third pary to conduct medical
           reviews of the claims as par of a pilot cost-containment program. Aetna chose
           HealthCar COMPARE Inc. of llinois to review the appropriateness of claims and
           physician charges.



Beginnng in November 1989, both changes have received extensive media attention , parcu­
larly in the Atlanta newspapers. Severa of the arcles suggested the changes have caused seri­
ous problems for Medicare beneficiares and their doctors.

Aetna s sta-up problems, coupled with a backlog of clais from the previous carer, created
delays and errors in payments. Furhermore, HealthCare COMPARE devoted more resources
than Prdential Insurance Company to detecting inappropriate coding and improper utilization
of services. The resultig incrase in payment denials and reductions caused concern among
beneficiares and physicians.





METHODS

A surey instrment composed of 16 questions was mailed in December 1989 to 637 ra­
domly selected Georgia beneficiares who had Medicare claims filed with Aetna in 1989.
Their parcipation in the survey   was voluntar.


Fort-seven beneficiares were eliminated from the sample for varous reasons: 5 question­
nais were undeliverable, 32 beneficiares were deceased, and 10 individuals had been erron­

eously selected. This reduced the sample size from   637 to 590.

A tota of 491 beneficiares returned completed questionnaies, for an overall response rate of
83 percent. (See appendix A for additional information on methods used in this survey.

Severa questions in this survey were used in a national OIG inspection, " Survey of Medicare
Beneficiar Satisfaction " (OAI- 04- 89- 89040), conducted in June 1989. National and Georgia
surey results were compared for those questions. In some instances, there were slight differ­
ences in the wording of the questions, and some questions from the national survey were
asked only of beneficiares who fie their own claims. Other questions are unique to the Geor­
gia survey and were used to address the paricular situation in Georgia. (See appendix B for
responses to all questions in the Georgia survey and appendix C for an explanation of the dif­
ferences in the two sureys and a detaled comparson of responses.
                                         FINDINGS



This surey found that Georgia Medicare beneficiares hold opinions of Medicar and carer
claims processing which ar similar to the opinions of beneficiares nationwide.

           Eighty- five percent of Georgia beneficiares are satisfied, in general, with claims
           processing, compared to 88 percent of beneficiares   nationwide.


           Eighty- three percent of Georgia beneficiares can get information about the
           Medicare program when needed, compared to 85 percent of beneficiares
           nationwide.

           Seventy-thre percent of Georgia beneficiares think the carer     pays   claims quickly
           enough, compard to 74 percent of beneficiares nationwide.


Georgia Beneficiaries Respond Similarly To Beneficiaries Nationwide.

In June 1989, the HHS Inspector General conducted a national survey of Medicare beneficiar­
ies. They were asked about their experience and satisfaction with varous aspects of the Medi­
care program, including claims processing.

Severa questions used in the national surey were included in the December 1989 survey of
Georgia beneficiares. Overall, results of the Georgia surey were similar to those of the na­
tional surey, although Georgia beneficiares appear to be slightly more negative about con­
tacts with their carer.


Beneficiaries In Georgia And Nationwide Are Satisfied, In General, With Claims
Processing.

Eighty- five percent of Georgia beneficiares stated they are satisfied with the way Aetna pro­
cessed Medicare claims they or their doctors submitted in 1989. Eighty-eight percent of bene­
ficiares nationwide ar satisfied with the way Medicare carers processed claims they
submitted themselves. (In the national survey, beneficiares were not asked about claims their
doctors submitted for them. See appendi C for further information regarding the differences
between the two sureys.



Thiry-nine percent of Georgia beneficiares had seen the recent newspaper aricles about
Aetna, most of which were critical. Whether these arcles influenced beneficiares ' satisfac­
tion with Aetna s services could not be established. However, the satisfaction rate of those
who had seen the arcles   (72 percent   satisfied) was 20 percent lower than those who had not
(92 percent satisfied).

Alost thre- fourhs of all the beneficiares (73 percent in Georgia and 74 percent nation­
wide) thin the carers pay claims quickly enough. Some Georgia beneficiares mentioned
that the processing time has improved since the beginning of the year. A couple of the Geor­
gia beneficiares stated fuer:

        ! feel Aetna ma do (as) well as possible since they probably inherited a backlog of
      claims from Prudential.

        ! understand Aetna was new at this and needed some time to adjust."

Although most Georgia beneficiares expressed satisfaction with claims processing, when
prompted by specific questions 62 percent indicated they had experienced one or more prob­
lems. About 40 percent said they experienced a problem with the amount Aetna paid. A sim­
ilar proporton said they did not understand the reason why. Almost one- fourth said they had
had to resubmit their claim(s) or other information. Around one- fifth had trouble fillng out
the claim form, getting information on the status of their claims, and/or had had a claim de­
nied. Figu 1 shows the specific percentages for each problem the questionnai listed.
                 .,.."."."."....."...,..,..""".,.",.."",...,...................-.......................

                                                .......................................................""""""
                 .................................................................................................
                                                ...................................................................
                 ......................................................-............................................
                 .........-.........-...............................................---...................---.....




                                                             Figure 1




                GEORGIA BENEFICIARIES REPORT CLAIMS PROCESSING PROBLEMS

          PERCENT
         100




                         44%




                  Disagreeing     Understading        Resubmittng   Gettng Claims      Having Claims     Filing out
                  with Amount     Amount Paid         Information     Information           Denied        Claims




The national surey asked respondents about three of six problems mentioned above. How­
ever, only those beneficiares who submit their own clais                            were   asked. (See appendix C for in­
formation regarding the differences in the two surveys.

The national survey found that:

                 Fifty-one percent had a problem understanding what Medicare had paid and why.

                 Thiry-six percent had           difficulty getting information on the status of their c1aim(s).

                 Twenty-six percent had trouble fillng              out the claim      form.

Thireen percent of the Georgia beneficiares thought Aetna had made a mistake on their
claims. This surey could not determine if the actions beneficiares cited were actually mis­
takes or just     perceived     as mistakes. .
Beneficiaries In Georgia And Nationwide Can Get Information When Needed.

Eighty- thee percent of the Georgia respondents and 85 percent of the national respondents
said they can get information about the Medicare program 
 when they need it. Thee- fourths
of Georgia and national respondents think the program is understandable.

About hal of the Georgia   respondents (51 percent) indicated they had needed        infor­
                                                                                specifc

mation about their own Medicare claims. Of that 51 percent, 62 percent received the needed
information most of the time.

Beneficiares who had received information on their claims were asked where they fist sought
help. As shown in Figue 2 , over a third contacted Aetna. Most of the others sought help
from their doctors or SSA. A small number contacted other sources such as insurce repre­
sentatives.


                                                       Figure 2





                        BENEFICIARIES SEEK CLAIMS INFORMATION

                               FROM VARIOUS SOURCES





        THEIR DOCTORS
             31%
Only 24 Georgia respondents said they had seldom or never been able to get information
needed about their claims. Seven of the 24 indicated they had never contacted Aetna for the
assistace they needed.



Less than one- third (30 percent) of the Georgia beneficiares indicated they had called Aetna
about a clai. Almost three-fours (71 percent) of those who called were satisfied with the
services they received.

Durg the period covered by the surey (1989), Aetna acknowledged several star-up prob­
lems, among them the operation of the toll- free phone service. This problem was exacerbated
when the Atlanta newspapers publicized the number in a series of arcles critical of Aetna
performance. In order to accommodate the increase in calls which these aricles generated,
Aetna temporaly instaled a second toll- free number. This improved accessibilty, but did
not solve several other problems, such as unclear explanations of what is paid on a claim and
why.

The Georgia questionnai listed possible problems beneficiares could have encountered on
caling their carer to get information on a claim. Seventy percent of the beneficiares cited a
busy phone line as an obstacle. Over half thought they were put " on hold" too long. One-
third did not understad the answers given by Aetna, and slightly less than a third did not get
their question(s) answered. Almost one- fourh of the beneficiares thought the person answer­
ing the phone had not been very coureous. Sixteen percent thought the carer s answers
were not correct. Figure 3 shows the exact percentages.
              ......................................................."."......,..,.".".".,.-,.,."..".,.,

              ..........................................................,......................................

                            ................-..............................""'...............................
                                           ....................................................................
                                            ..................................................................-
                                                                           ..................-.................




                                                        Figure 3




                GEORGIA BENEFICIARIES EXPERIENCE PROBLEMS CALLING CARRIER
        PERCENT
        100




                    70%




                                             ...............................................-..-...-.'OW""'.'.





                  Line Busy       On Hold        Answer Not      Question Not   Spokesperson        Answer
                                  Too Long     Understadable       Answered     Not Courteous      Not Correc



In the national survey, just over one- fourh (28 percent) of the beneficiares had used the toll-
free number to cal their carers. Eighty percent indicated they had been satisfied with the ser-
VIce.

The national questionnaie listed 5 of the previously mentioned problems beneficiares could
encounter when calling their carers. The incidence of problems cited by beneficiares nation­
wide was no different from the Georgia survey. Nationally, beneficiares responded as follows:

               Seventy-one percent found a busy line as a problem.

               Sixty percent thought they had been put " on hold" too long.

               Twenty- five percent did not understand the answers given by the carers.

               Nineteen percent thought the person they talked to had not been very courteous.

               Twelve percent thought the answers they were given had not been correct.
Satisfaction With The Appeal Process Cannot Be Detennined.

Over the- fours   of the beneficiares in both sureys ar   awar they can appeal decisions
made on their claims. Although in a previous question almost hal of the Georgia beneficiar­
ies said they had a problem with the amount Aetna had paid on their claims , only 34 benefici­
ares indicated they had appealed Aetna s decisions. Of the 34 , only 25 answered questions
about their experiences with appeals, too few to permt statistical analysis.


Respondents ' Comments Were Generally Positive.

Respondents to the Georgia surey were offered the opportunity to volunteer further com­
ments about the Medicar program. Almost hal (44 percent) chose to do so. Forty-one per­
cent of the beneficiares who commented were positive, and 33 percent were negative. The
positive comments expressed satisfaction with the services provided by Aetna. The negative
comments focused on delays in payments, low payments, uncovered or disallowed services,
and diffculty in understading Aetna s explanations. Nine percent of the beneficiares made
comments that were both positive and negative. Seventeen percent commented on issues unre­
lated to the Medicar program.
                                  HCFA COMMENTS


The HCFA reviewed a preliminar draft of this report. In response to HCFA' s technical ques­
tions (see appendi E) we clarfied our explanation of the study methods. One of HCFA'
questions concerned the difference in the samples for the Georgia and the national sureys.
The universe for both samples was beneficiares who had received Medicar Par B services.
Appendix C explains the diferences in the two surveys.
                                         APPENDIX A

                           METHODS AND SAMPLE SELECTION


The purose of this surey was to determne beneficiar satisfaction with services provided by
the Georgia Medicare Par B carer,     Aetna Life and   Casualty. The survey universe is 338, 857
individuals who received Medicare Par B benefits in Calendar Year 1989. A nonsttatified sim­
ple random sample of that universe was selected.

Based upon previous experience with mail sureys of Social Securty and Medicare beneficiar­
ies, the sample size was calculated to produce an estimate within 10 percent of the tre value
at the 95 percent confidence level. To arve at the sample size, standard equations were em­
ployed for estiting sample size with a binar response varable.

With an expectation of 65 percent response, a sample of 640 Health Insurance Claim (HC)
numbers was drwn from HCFA' s Par B Medicare Automated Data Retreval System fies for
Georgia. The names and addresses in that fIe were used for the mai-out.

Three individuals were removed from the sample because they had out-of- State addresses.

The 637 questionnaies were mailed December 11 , 1989. Within 2 weeks, 387 responses had
been received. A second mailng to the 250 nonrespondents was sent on December 26. Phone
calls were made the week of Januar 8, 1990 to all nonrespondents for whom numbers could
be obtaed.

Fort-seven beneficiares were elimiated from the sample for varous reasons: 5 question­
naies were undeliverable, 32 beneficiares were deceased, and 10 individuals were erron­
eously selected. This reduced the sample size from 637 to 590.



A tota of 491 beneficiares ultiately responded to      the surey. This represents a response rate
of   83. 2 percent, and produces estimates within 9 percent of the tre value at the 95 percent
confidence level.




                                               A ­

                             APPENDIX 8


RESPONSES        TO    GEORGIA MEDICARE BENEFICIARY SURVEY

                                         Number of
      Question                           Responses        Percentage

In general, do you think:

      The Medicare Program is
      understandable

      YES                                   350

                                            119

      NO ANSWER


      You can get information about

      Medicare when you need it


      YES                                   379

      NO ANSWER

      Medicare/Aetna pays your claims

      quickly enough


      YES                                   337

                                            123

      NO ANSWER




Thinking about Medicare claims you or your doctor have submitted this
year, how satisfied are you with way Medicare! Aetna has processed
those claims?

VERY SATISFID                              150
GENERALY SATISFIED                         227
GENERALY DISSATISFIED
VERY DISSATISFIED
NO ANSWER
                                        Number of
    Question                            Responses          Percentage


The following are possible reasons why someone might be disstisfied
with Medicare claims. Have any of the following been a problem for you?

    Filing out   Medicare claims
    YES
                                            373
    NO ANSWER

    Having to resubmit claim(s)
    or other information
    YES                                     102
                                            347
    NO ANSWER

    Gettng informtion on the
    statu of your claim(s)
    YES
                                            339
    NO ANSWER

    The amount MedicarelAetna
    approves for payment
    YES                                     198
                                            250
    NO ANSWER

    Understanding what Medicarel
    Aetna paid on your claim and why
    YES                                     178
                                            260
    NO ANSWER

    MedicarelAetna denying your claim
    YES
                                            355
    NO ANSWER

    Other (Please explain)
    NUMBER OF PEOPLE RESPONDING
                                         Number of
    Question                             Responses          Percentage


Has Medicare/ Aetna made mistakes on the claims you or your doctor
have submitted this year?

    YES
                                             382
    NO ANSWER


We would like to ask about times when you have needed to get specific
information about your Medicare claim(s). How often were you able to
get the information you needed?

    MOST OF TH                               151
    SOME OF TH
    SELDOM OR NEVER
    I HAVE NEVER NEEDED TO GET
      INORMATION                            204
    NO ANSWER


Where did you go first to get information about your Medicare claim(s)?

    MEDICARE/AETNA
    SOCIAL SECUR
    YOUR DOCTOR
    OTHR
    I HAVE NEVER NEEDED TO GET
      INORMATION                             144
    NO ANSWER


Have you ever called Medicare/ Aetna to get information about your
Medicare claim?

    YES                                      141
    NO (Skip to Q- lO)                      325
    NO ANSWER
                                          Number of
    Question                              Responses          Percentage


Thinking about the last time you called Medicare! Aetna, how satisfied
were you with the service you received?

    VERY SATISFID

    GENERAY SATISFID

    GENERALY DISSATISFIED

    VERY DISSATISFID

    NO ANSWER




                                 B - 4

                                          Number of
    Question                              Responses         Percentage


Listed below are some possible reasons that someone would be dissatisfied with
callng Medicare/Aetna. Did you have any of the following problems the last
time you called?

    Line was bus

    YES


    NO ANSWER

    Put on "Hold" too long

    YES


    NO ANSWER

    Not able to get your

    question(s) answered

    YES


    NO ANSWER

    Answers given were not

    understandable

    YES


    NO ANSWER

    Answers given were not correct
    YES


    NO ANSWER


    Person answering call was

    not very courteous

    YES


    NO ANSWER


    Other (Please explain)
    NUMBER OF PEOPLE RESPONDING




                                 B -­
                                               Number of
         Question                              Responses          Percentage

10. Sometimes people disagree with the decisions made on their Medicare claims.
    When this happens, you may appeal or request a review of those decisions.
    Did you know before today you could appeal or request review?

         YES                                       355
                                                   103
         NO ANSWER


11. In the past year, have you appealed a decision made by Medicare/ Aetna
    on a claim you submitted?

         YES
         NO (Skip to Q- 15)                        408
         NO ANSWER


12. What   aspect(s) of your claim(s) did you request an appeal on?

         MEICARE/AETNA
          DENID YOUR CLAIM

         MEDICARE/AETNA
           DID NOT PAY AS

          MUCH AS YOU
          THOUGHT IT SHOULD
         OTHR (Please explain)
         NO ANSWER

13. How satisfied were you with the appeal proces?

         VERY SATISFIED
         GENERALY SATISFID
         GENERALY DISSATISFIED
         VERY DISSATISFID

         NO ANSWER




                                      B - 6

                                                 Number of
          Question                               Responses       Percentage


14. The  following are posible reasons why someone might be dissatisfied
    with the appeal proces. Have any of the following been a problem
    for you?

          Process took too long
          YES

          NO ANSWER

          Disagreed with the final decision
          YES

          NO ANSWER

          Didn t understand the final decision
          YES

          NO ANSWER

          Did not hae an adequate
          opportunity to present
          your argument
          YES

          NO ANSWER

    e. Other (Please explain)
          NUMBER OF PEOPLE RESPONDING

15. In November there were some articles in Georgia newspapers about
    Aetna s handling of Medicare claims. Did you see any of these articles?

          YES                                      187
                                                   296
          NO ANSWER




                                        B ­

                                                Number of
         Question                               Responses           Percentage


16. We are interested in any other comments you may have about your
    experience with Medicare! Aetna. Please provide your comments here:

         POSITIV

         NEGATI

         MIXD

         OTHR

         NO ANSWER                  273





NOTES:

Not every respondent answered every question. Percentages are based on actual re­
sponses. The number of respondents not answering an individual question is not included
in the calculation of percentages.

The sum of the individual percentages may not equal 100 percent due to independent
roundig.




                                       B - 8

                                                    APPENDIX C

                         COMPARISON                  TO 1989            NATIONAL SURVEY


In June 1989, the HHS Inspector Genera conducted a national surey of Medicare beneficiar­
ies. The sample for the surey was drawn from HCFA' s Par B Medicar Annual Data System
ftes. All respondents    had received Par B Medicar services in Calendar Year 1987. The Part
B clais had been fied by either the beneficiares or                       their doctors. That surey         asked   benefi­
ciares about their experience and satisfaction with varous aspects of the Medicare program
includig clais processing.

Diferences between the Surveys



The surey of   Georgia     beneficiares included some questions which                     exactly matched    those
used in the national surey,       and    some questions which were              similar   to those used in the na­
tional surey.

Two tyes of differences occurrd with the questions that were similar. First, the question
about satisfaction with claims proessing was asked in the national   survey only of individuals
who fied their own claims. The satisfaction rate of beneficiares whose doctors fied clais
for them , therefore,. cannot be determined in the national surey. This question, however, was
asked of  all beneficiares (including those whose doctors fied clais for them) on the Georgia
surey.

Secondly, questions #3 and #9 on the Georgia survey (concerning problems with claims pro­
cessing and getting information from Aetna) contaned more options than were offered in the
national surey.

In summar, because of the difference in the proporton and type of respondent answering the
questions, and the differences in wording of the questions, it is inappropriate to make direct
comparsons between the two sureys for these questions.


How Beneficiaries Responded in Georgia and Nationwide

The questions asked in both surveys, and the responses, follow:




                                                               C - 1

               QUESTION	                             GEORGIA             NATIONAL



    In   general, do you think:

               The Medicare program

               is understandable?


               YES	                                     75%                73%
                                                        25%                28%

               You can get informtion

               about Medicare when

               you need it?


               YES	                                     83%                 85%
                                                        17%                 15%

               Medicare pays your claims

               quickly enough?


               YES	                                     73%                 74%
                                                        27%                 26%


    Thinking about Medicare claims you or your doctor have submitted this year,
    how satisfied are you with the way Medicare has processed those claims?*

               VERY SATISFID                            34%                 26%
               GENERALY SATISFID                        51%                 62%
               GENERALY DISSATISFID                     11%
                VERY DISSATISFID




*In the national surey, only those beneficiares who submit their own claims were asked this
question.
             QUESTION                                GEORGIA             NATIONAL



   The following are possible reasons why someone might be dissatisfied with
   Medicare claims. Have any of the following been a problem for you?*

             Filing out   Medicare claims

             YES                                        18%                26%
                                                        82%.               74%

             Getting informtion on the
             status of your claim(s)

             YES                                        22%                36%
                                                        78%                65%

             Understanding what Medicare
             paid on your claim and why

              YES                                       41%                51%
                                                        59%                49%


    Thinking about the last time you called Medicare, how satisfied were you with
    the services you received?

              VERY SATISFID                             28%                27%
              GENERALY SATISFIED                        43%                53%
              GENERALY DISSATISFIED                     13%                14%
              VERY DISSATISFID                          16%




*In the national survey, only those beneficiares who submit their own claims were asked this
question.




                                            C - 3

            QUESTION                               GEORGIA             NATIONAL


   Listed below are possible reasons someone might be disstisfied with callng
   Medicare. Did you have any of the following problems the last time you called?

            Line was bus

            YES                                       70%                 71%
                                                      31%                 29%

            Put II on hold" too long

            YES                                       56%                 60%
                                                      44%                 40%

            Answers given were not
            understandable

            YES                                       34%                 25%
                                                      66%                 76%

            Ansers given were not correct
            YES                                       16%                 12%
                                                      84%                 88%

            Person ansering     phone was
            not very courteous

            YES                                       23%                 19%
                                                      77%                 81%


   Sometimes people disagree with the decisions made on their Medicare claims.
   When this happens, you may appeal or request a review of those decisions.
   Did you know before today that you could appeal or request a review?

            YES                                       78%                76%

NOTE:
        The sum of the individual percentages may not equal 100 percent due to
        independent rounding.
                                           APPENDIX D


              ANAL YSIS     OF   RESPONDENTS        VS.   NONRESPONDENTS

Bias may be introduced in sureys of this type if the nonrespondents ar dierent from the re­
spondents. This surey s high response rate (83 percent) diminishes the potential for non-
response bias. Even so, respondents and nonrespondents were compared demographically to
assur accurcy of the surey fmdings.

Method Of Analysis

Severa data base fies were analyzed to compare the 491 respondents with the 99 non-
respondents. Comparsons were made by age, sex, and race. The same demogrphics were
used to make comparsons among respondents. The purose of segmenting respondents was
to review for possible tendencies which could be relevant to nonresponse bias.

Responses to the questions were analyzed to determine whether a corrlation exists between
respondent characteristics and opinions of Medicar. The thee questions relate to the Medi­
care program in genera, informtional services, and Aetna s claims processing. These ques­
tions were asked of everyone surveyed. Responses to the questions were analyzed by
demogrphics, and early or late receipt of the completed questionnais.

The questions selected for analysis were:

               Q- l.
     Is Medicare understandable?
                          Can you get informtion when you   need   it?
                          Are claims paid quickly enough?


Analysis By Age

Responses of beneficiares age 73 and younger were compard to those of beneficiares age 74
and older. The analysis by age revealed no statisticaly signifcant diference in responses to
any of the thre questions. Further, respondents were very similar to nonrespondents. The av­
erage ages for respondents and nonrespondents were 72 and 74 , respectively.

Analysis By Gender

Thiry- five percent of the sample population were males and 65 percent were females. Re­
sponse rates were virually the same for men (84 percent) and women (83 percent). Compar­
ing male and female responses to the designated questions, there was no statistically
significant difference between the sexes.




                                               D­
Analysis By Race

Seventy-eight percent of the sample population was white, 19 percent was black, and 3 per­
cent was classified as " other" or " unkown. " The rate of response for each racial category
was very simar to the corresponding frequency in the sample. In comparg the responses to
the selected questions, the difference among racial groups was statistically insignificant.

Analysis By Time Of Response

Some sureys similar to this one indicate that diferences may exist between early and late re­
sponses, and furher that late respondents and nonrespondents may share certain tendencies. A
                                                              1 ,
1989 OIG study of beneficiar satisfaction with Social Securty for example, suggested that
 the nonrespondents, although not more negative, may be less enthusiastic than the respon­
dents.

To test for possible nooresponse bias inthis survey, the 369 responses received within 2 weeks
(75 percent) were compared to the 122 received the following 4 weeks (25 percent). No statis­
ticaly signifcant difference existed between the early and late responses.




1 Offce of Inspetor Genera, United
                                               States Deparent of     Health and Human Services.   Social Security Client
Satisfaction: Fiscal Year           1989. OAI- 12- 89- 00420.   August 1989
 APPENDIX E





HCFA COMMENTS





     E - 1

                                                     ;;'­
                  "-"-
                                                                               Health Care
           DEPARTMENT OF HEALTH &. HUMAN SERVICES                              Financing Administration




..,,)O                                                                         Memorandum
                   FEB - 8 1990
 Date

 From      Director
           Bureau of Program Operations
 Subject   OIG Draft Report: "Beneficiaries Satisfaction With Georgia's Medicare
           Carrier -INFO RMA TION
           Chief, Health Care Branch
           Office of the Inpector General

           Our comments on the OIG draft report, "Beneficiaries Satisfaction with
           Georgia' s Medicare Carrier" are as follows:
                   We believe the report should include an explanation of the difference in
                   the criterion used for selecting the surveyed Georgia beneficiaries and
                   the one for last year s national survey. As explained during the exit
                   conference, beneficiaries surveyed nationally were limited to those who
                   had filed their own claims.
                   Does the way the sample was derived affect the   statistics displayed in
                   Appendix C, or at least their comparabilty?
                   The section entitled, "Analysis by Time of Response , on page D-2,
                   refers to " early"and "late" responses. No explanation is provided for the
                   differences between " early" and "late . Rather, it appear the
                   designation is based strictly on responses falling within either the first
                   75 percent or last 25 percent received.

           We believe this survey will be extremely beneficial in indicating the satisfaction
           level of Georgia beneficiaries after their firt year of service from Aetna. In
           light of that, I would like to request that OIG conduct a similar beneficiary
           satisfaction survey in New Jersey. As with Aetna Georgia,    Pennsylvania Blue
           Shield (New Jersey) has received much criticism from members of the
           New Jersey Congressional Delegation and the physician/supplier community.
           Any questions concerning our comments should be directed to Sue Lathroum on
           X65894. I would alo request that you advise either Sue or me whether OIG wil
           be able to conduct a survey in New Jersey.
                                                                     C)
                                                 Barbara J. Gagel
